  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




     SOUTH CAROLINA PROPERLY
OBLIGATED AND LIQUIDATED TARGETED
 FUNDS UNDER THE CHILD CARE AND
   DEVELOPMENT FUND PROGRAM

    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                      Lori S. Pilcher
                                                 Regional Inspector General

                                                          April 2014
                                                        A-04-13-01021
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                          INTRODUCTION


 South Carolina complied with Federal requirements when submitting Child Care and
 Development Fund claims for fiscal years 2007 through 2009.

WHY WE DID THIS REVIEW

The Child Care and Development Fund (CCDF) provides Federal discretionary funding for the
following three targeted funds: School Age Resource and Referral, Quality Expansion, and
Infant and Toddler. These targeted funds are used for activities that improve the availability,
quality, and affordability of childcare and to support the administration of these activities. At the
Federal level, the U.S. Department of Health and Human Services, Administration for Children
and Families (ACF) administer the funds. We conducted this review because previous Office of
Inspector General reviews found that other States did not always comply with Federal
requirements when claiming targeted funds for reimbursement. (See Appendix A for a list of
OIG reports related to targeted funds.) We therefore identified State CCDF claims as being
potentially at risk.

OBJECTIVE

The objective of our audit was to determine whether the South Carolina Department of Social
Services (State agency) complied with Federal requirements for the use of CCDF targeted funds
for Federal reimbursement for fiscal years (FYs) 2007 through 2009.

BACKGROUND

Under CCDF, States have considerable latitude in implementing and administering their
childcare programs. Each State must develop and submit to ACF a State plan that identifies the
purposes for which CCDF funds will be expended for two grant periods (i.e., 2 FYs). Program
requirements state that a State agency has 2 FYs to obligate CCDF funds and a 3rd FY to
liquidate those funds. Table 1 shows the obligation and liquidation periods for each FY covered
by our review.

                          Table 1: Obligation and Liquidation Periods

                               Obligation Period Obligation Period Liquidation Period
                                  Start Date         End Date          End Date
               FY
              2007                  10/1/2006               9/30/2008           9/30/2009
              2008                  10/1/2007               9/30/2009           9/30/2010
              2009                  10/1/2008               9/30/2010           9/30/2011

The State plan must also designate a lead agency responsible for administering childcare
programs. In addition, States are required to report expenditures of targeted funds on the



South Carolina Child Care and Development Targeted Funds (A-04-13-01021)                        1
quarterly Child Care and Development ACF-696 Financial Report (ACF-696 report), which is a
cumulative report for the FY.

In South Carolina, the State agency is the lead agency designated to administer the CCDF
program. The State agency is responsible for monitoring programs and services, ensuring
compliance with program rules, and overseeing the expenditures of funds by sub-grantees and
contractors. The State agency does not directly administer and implement all services, programs,
and activities funded under the CCDF act. Instead, the State agency maintains control of
services that are provided by other agencies by entering into legally binding contracts or grant
agreements with these agencies at which time the funds are considered obligated.

HOW WE CONDUCTED THIS REVIEW

For FYs 2007 through 2009, the State received $20,494,592 from ACF for targeted funds (Table
2):

                 Table 2: Federal Funding of South Carolina’s Targeted Funds

                          School Age               Quality               Infant and                Total
                         Resource and             Expansion               Toddler
                           Referral
2007                          $319,910               $3,115,476             $1,804,274             $5,239,660
2008                            314,571               3,059,154              1,771,656              5,145,381
2009                            326,492               3,192,986              1,849,166              5,368,644
ARRA Funding                                          3,002,225              1,738,682              4,740,907
    Subtotal 2009                326,492              6,195,211              3,587,848             10,109,551
     Total                      $960,973            $12,369,841             $7,163,778            $20,494,592

We reviewed contracts totaling $19,676,107 of targeted fund expenditures claimed by the State
agency. 1

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains details of our audit scope and methodology, and Appendix C contains
details on the Federal and State requirements related to CCDF targeted funds.




1
 The 3-year obligation and liquidation cycle described above delays the moment when these funds can be regarded
as both closed for adjustment and subject to audit.


South Carolina Child Care and Development Targeted Funds (A-04-13-01021)                                   2
                                       RESULTS OF AUDIT

The State agency complied with Federal requirements for the obligation and liquidation of the
full amount of the $19,676,107 of CCDF targeted funds that we reviewed. Accordingly, this
report contains no recommendations.




South Carolina Child Care and Development Targeted Funds (A-04-13-01021)                   3
           APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                                                                               Report         Date
                        Report Title                                          Number         Issued
Review of Unexpended Infant and Toddler Targeted Funds and                 A-07-07-00231   8/18/2008
Quality Targeted Funds Claimed by the Iowa Department of
Human Services for Fiscal Years 1998-2003
Ohio Properly Obligated and Liquidated Targeted Funds                      A-05-12-00061   4/26/2013
Under the Child Care and Development Fund Program
Connecticut Properly Obligated and Liquidated Targeted                     A-01-12-02505   2/21/2013
Funds Under the Child Care and Development Fund Program
Iowa Improperly Claimed Some Child Care and Development                    A-07-11-03163   3/26/2012
Targeted Funds
Virginia Properly Obligated and Liquidated Most Targeted                   A-03-12-00251   10/17/2013
Funds Under The Child Care and Development Fund Program
Louisiana Improperly Claimed Some Child Care and                           A-06-12-00057   9/30/2013
Development Fund Targeted Funds
Nebraska Improperly Claimed Some Child Care and                            A-07-12-03175   4/30/2013
Development Targeted Funds
Michigan Properly Obligated and Liquidated Targeted Funds                  A-05-12-00062   4/26/2013
Under the Child Care and Development Fund Program




South Carolina Child Care and Development Targeted Funds (A-04-13-01021)                         4
                        APPENDIX B: SCOPE AND METHODOLOGY

SCOPE

Of the $20,626,250 claimed by the State agency for targeted funds reimbursement for FYs 2007
through 2009, we reviewed expenditures totaling $19,676,107. We did not perform a detailed
review of the State agency’s internal controls because our objective did not require us to do so.
We limited our review to the controls related to the obligation and liquidation of the targeted
funds.

We conducted fieldwork at the State agency in Columbia, South Carolina, in May 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and program guidance, as well as State
        laws and the approved South Carolina CCDF State plans;

    •   discussed with ACF allocations and reporting;

    •   discussed with the State agency its contracts, liquidation, grants, ARRA funding,
        expenditures, journal entries, transfers, and other related topics;

    •   reviewed and reconciled the ACF-696 reports for FYs 2007 through 2009 to determine
        the amount of targeted funds that the State agency claimed;

    •   reconciled the execution dates of relevant South Carolina State Government contracts to
        the obligation requirements of the targeted funds for FYs 2007 through 2009;

    •   reconciled the State agency’s payment dates to contractors, grantees, and other agencies
        of the South Carolina State Government to the liquidation requirements of the targeted
        funds for FYs 2007 through 2009;

    •   reviewed the documentation that the State agency used to prepare the ACF-696 reports;

    •   reconciled accounting documentation maintained by the State agency to expenditures of
        the Infant and Toddler targeted fund for direct childcare services;

    •   reviewed documentation submitted by contractors to the State agency in support of the
        expenditure of targeted funds; and

    •   discussed the results of our review with State agency officials on December 5, 2013.




South Carolina Child Care and Development Targeted Funds (A-04-13-01021)                       5
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




South Carolina Child Care and Development Targeted Funds (A-04-13-01021)                   6
       APPENDIX C: FEDERAL REQUIREMENTS RELATED TO CHILD CARE AND
                       DEVELOPMENT TARGETED FUNDS

FUND OBLIGATION REGULATIONS

Federal regulations (45 CFR § 98.60(d)(1)) state: “Discretionary Fund allotments shall be
obligated in the fiscal year in which funds are awarded or in the succeeding fiscal year.
Unliquidated obligations as of the end of the succeeding fiscal year shall be liquidated within one
year.”

Federal regulations (45 CFR § 98.60(d)(7)) state that “[a]ny funds not obligated during the
obligation period specified in paragraph (d) of this section will revert to the Federal government.
Any funds not liquidated by the end of the applicable liquidation period specified in paragraph
(d) of this section will also revert to the Federal government.”

Federal regulations (45 CFR § 98.60(g)) require that funds that are properly obligated and
liquidated but are subsequently returned to the grantee within the original obligation period,
“(1) if received by the Lead Agency during the applicable obligation period … be used for
activities specified in the Lead Agency’s approved plan and must be obligated by the end of the
obligation period; or (2) if received after the end of the applicable obligation period … be
returned to the Federal government.”

ACTIVITY REGULATIONS

Federal regulations (45 CFR § 98.16(h)) require that the approved CCDF State plan include
“[a] description of the activities to provide comprehensive consumer education, to increase
parental choice, and to improve the quality and availability of child care, pursuant to [45 CFR]
§ 98.51.”

Federal regulations (45 CFR §§ 98.51(a) and (b)) require that no less than 4 percent of the
aggregate funds be spent on activities to improve the quality of childcare and that the Lead
Agency describe in the CCDF State plan the activities it will fund under the quality activities
(which includes the targeted funds). 2

Federal regulations (45 CFR § 92.20(b)(2)) require the financial systems of grantees and
subgrantees to maintain records which adequately identify the source and application of funds
provided for financial assisted activities.

Federal regulations (45 CFR § 98.67(c)) require fiscal control and accounting procedures be
sufficient to (1) prepare reports required by the Secretary and (2) the tracing of funds to a level of
expenditure adequate to establish the funds have not been used in violation of the provisions of
this part.




2
    Quality activities include the targeted funds, which are in addition to the 4-percent minimum.

South Carolina Child Care and Development Targeted Funds (A-04-13-01021)                             7
Program Guidance issued in 2009 required the grantee to have sufficient fiscal and accounting
procedures to permit the preparation of required reports and the tracing of expenditures to a level
of expenditure adequate to establish that such funds have not been used in violation of 45 CFR
part 98.




South Carolina Child Care and Development Targeted Funds (A-04-13-01021)                      8
